CERTIFICATE OF SERVICE
I hereby certify that on September 1, 2020, one originally signed Reply
Brief in Support of Certiorari was dispatched for delivery to the Clerk's Office
of the United States Supreme Court via First Class Priority Mail at the
following address:
Clerk
United States Supreme Court
1 First Street, N.E.
Washington, DC 20543
On this same date one copy of the Reply Brief in Support of Certiorari
was sent to the following for delivery via First Class Postal Mail:
Michael B. De Leeuw
Tamar S. Wise
Cozen O'Conner
45 Broadway, 16th Floor
New York, New York 10006
Respectfully submitted, this 1st day of September, 2020.

William A. Anderson
Appellant — Pro Se

Mailing Address:
P.O. Box 311872
New Braunfels, TX 78131
(912) 441-1063
lvoice4justice@gmail.com

RECEIVED
SEP 10 2020
OFFICE OF THE CLERK
SUPREME COURT LS. j
STATE OF
COUNTY OF

cr

The foregoing instrument was acknowledged before
me this 04' day of
20-z by (,);It ja-tnet

Att“.

ACceizaix

Avtae,vson

iGc,t;% vArta kft.tx3 4_,
Notary Public's Signature u
Notary Name
Personally Known
OR
Type of Identification Produced TA_K S glum/-WS (1' WA" CC

